               The Chief Information Officer Is Taking Steps
                 to Timely Complete Corrective Actions to
                    Treasury Inspector General for Tax
                          Administration Reports

                                     April 2005

                       Reference Number: 2005-20-071




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.


Redaction Legend:
7 = Predecisional staff recommendations or suggestions to agency decision makers
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                        April 11, 2005



      MEMORANDUM FOR CHIEF INFORMATION OFFICER



      FROM:                          Pamela J. Gardiner
                                     Deputy Inspector General for Audit

      SUBJECT:                       Final Audit Report - The Chief Information Officer Is Taking
                                     Steps to Timely Complete Corrective Actions to Treasury
                                     Inspector General for Tax Administration Reports
                                     (Audit # 200520028)



      This report presents the results of our review of Modernization and Information
      Technology Services (MITS) open corrective actions. Our overall objective was to
      determine whether the Internal Revenue Service (IRS) is efficiently addressing open
      corrective actions resulting from Treasury Inspector General for Tax Administration
      (TIGTA) audit recommendations. In October 2004, the Chief Information Officer (CIO)
      expressed concerns regarding the number of open corrective actions and requested
      that we perform a review of the MITS organization’s open corrective actions.
      In summary, since Fiscal Year 2000, we have issued to the MITS organization a
      consistent number of audit reports each year resulting in an average of
      143 recommendations per year. Based on the distribution of the open corrective
      actions within the MITS organization, we believe no division is overly burdened with a
      large number of outstanding corrective actions.
      While corrective actions are being closed by the MITS organization,1 some of the open
      corrective actions are not being resolved by the original due dates. All open corrective
      actions are significant because they address issues with systems security, systems




      1
        We did not verify whether the actual steps taken to close the corrective actions were adequate to satisfy the
      recommendations made in the audit reports.
                                                           2

modernization, existing IRS material weaknesses/internal control deficiencies,2 or the
President’s Management Agenda (PMA).3
After we briefed the CIO on our results, the CIO initiated additional actions to improve
the timeliness of completing corrective actions and reemphasized to the staff the
importance of providing quality, timely responses to TIGTA reports. Therefore, we
made no additional recommendations in this report.
Management’s Response: Management’s response was due on March 31, 2005. As of
April 5, 2005, management had not responded to the draft report.
Copies of this report are also being sent to the IRS managers affected by the report
results. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.




2
  Internal control deficiencies, also known as “reportable conditions,” are matters that could adversely affect an
organization’s ability to initiate, record, process, and report financial data consistent with the assertions of
management in the financial statements.
3
  The PMA is an aggressive strategy for improving the management of the Federal Government. It focuses on
critical areas of management weaknesses across the Federal Government where improvements and the most
progress can be made.
 The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
               Treasury Inspector General for Tax Administration Reports




                                             Table of Contents


Background ............................................................................................... Page 1
The Modernization and Information Technology Services
Organization Is Closing Corrective Actions ............................................... Page 1
Some Corrective Actions Are Not Being Timely Resolved ........................ Page 3
Open Corrective Actions Are Related to Significant Areas........................ Page 4
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 10
Appendix II – Major Contributors to This Report ....................................... Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Division of Open Corrective Actions Within
the Modernization and Information Technology
Services Organization ............................................................................... Page 13
Appendix V – Security Versus Non-Security Open
Corrective Actions ..................................................................................... Page 14
Appendix VI – Corrective Actions Related to Material
Weaknesses or Internal Control Deficiencies............................................ Page 15
Appendix VII – Corrective Actions Related to the
President’s Management Agenda ............................................................. Page 16
Appendix VIII – Categorization of Open Corrective Actions ...................... Page 17
  The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
                Treasury Inspector General for Tax Administration Reports

                                  The Internal Revenue Service (IRS) Modernization and
Background
                                  Information Technology Services (MITS) organization is
                                  challenged with addressing recommendations made by the
                                  Treasury Inspector General for Tax Administration
                                  (TIGTA) and other oversight groups. The MITS
                                  organization initiates corrective actions and tracks the status
                                  of those actions in response to oversight recommendations.
                                  According to the IRS, the Office of Stakeholder
                                  Management regularly issues aging reports to responsible
                                  officials assigned the open corrective actions. These reports
                                  list corrective actions that are due or will be due within
                                  30, 60, and 90 days. The responsible officials are required
                                  to respond to the reports by providing status updates on the
                                  open corrective actions. In addition, as part of the
                                  MITS organization’s Business Performance Reviews, open
                                  corrective actions are reviewed and the status is discussed to
                                  provide oversight and tracking.
                                  In October 2004, the Chief Information Officer (CIO)
                                  expressed concerns regarding the number of open corrective
                                  actions and requested that we perform a review of the MITS
                                  organization’s open corrective action items. The CIO
                                  provided a listing of 129 corrective actions open as of the
                                  beginning of October 2004. As of November 2004,
                                  101 corrective actions remained open and were analyzed
                                  during this audit.
                                  This review was performed in the MITS organization
                                  offices at the IRS National Headquarters in
                                  Washington, D.C., during the period November 2004
                                  through February 2005. The audit was conducted in
                                  accordance with Government Auditing Standards. Detailed
                                  information on our audit objective, scope, and methodology
                                  is presented in Appendix I. Major contributors to the report
                                  are listed in Appendix II.
                                  Since Fiscal Year (FY) 2000, we have issued to the MITS
The Modernization and
                                  organization an average of 32 audit reports per year
Information Technology
                                  containing an average of 143 recommendations per year.
Services Organization Is
                                  Figure 1 shows the number of audit reports we issued to the
Closing Corrective Actions
                                  MITS organization and the corresponding number of
                                  recommendations.


                                                                                          Page 1
The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
              Treasury Inspector General for Tax Administration Reports

                                 Figure 1: TIGTA Final Reports and Associated Recommendations




                                Source: Data obtained from analyzing historical TIGTA audit reports.

                                The MITS organization responded to these audit
                                recommendations by initiating and taking measures to
                                complete corrective actions. For example, all FY 2000
                                recommendations were closed through the completion of
                                their assigned corrective actions.1 Only a small percentage
                                of corrective actions remained open for FYs 2001, 2002,
                                and 2003. As of November 2004, 101 corrective actions,
                                resulting from 92 recommendations, remained open. The
                                majority (67 of 101 or 66 percent) of the open corrective
                                actions were from FY 2004 audits. Figure 2 shows a
                                breakdown of open corrective actions by fiscal year.




                                1
                                  We did not verify whether the actual steps taken to close the corrective
                                actions were adequate to satisfy the recommendations made in the audit
                                reports.
                                                                                                  Page 2
  The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
                Treasury Inspector General for Tax Administration Reports

                                           Figure 2: Open Corrective Actions by Fiscal Year




                                  Source: Data obtained from analyzing the Joint Audit Management
                                  Enterprise System (JAMES).

                                  Based on the distribution of the open corrective actions
                                  within the MITS organization, we believe no division is
                                  overly burdened with a large number of outstanding
                                  corrective actions. No division has over 20 open corrective
                                  actions. See Appendix IV for a detailed breakdown of this
                                  analysis.
                                  While corrective actions are being closed by the MITS
                                  organization, we determined some of the open corrective
                                  actions are not being resolved by their original due dates,
                                  and open corrective actions relate to critical areas.
                                  The number of recommendations has been fairly consistent
Some Corrective Actions Are
                                  from year to year, and no division within the MITS
Not Being Timely Resolved
                                  organization appears to be overly burdened with corrective
                                  actions. However, some corrective actions are not being
                                  timely resolved. Of the 101 open corrective actions,
                                  32 (32 percent) are considered late by an average of
                                  15 months.
                                  Figure 3 shows the majority of overdue items are from prior
                                  fiscal years and if timely closed would reduce the number of
                                  open corrective actions. Older corrective actions are being
                                  worked on by the MITS organization; however, it is taking
                                  longer than expected to complete the corrective actions
                                                                                              Page 3
  The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
                Treasury Inspector General for Tax Administration Reports

                                  due to the extensive nature of the work required. See
                                  Appendix V for a listing of open corrective actions and the
                                  current status of work performed to complete the corrective
                                  actions.
                                               Figure 3: Overdue Open Corrective Actions

                                                     Open              Corrective
                                      Fiscal                                             Average Months
                                                   Corrective           Actions
                                      Year                                                  Overdue2
                                                    Actions             Overdue

                                      2000               0                   0                    0

                                      2001               5                   5                   35

                                      2002              13                   8                   22

                                      2003              16                   8                   12

                                      2004              67                  11                    4
                                   TOTAL               101                  32                 15.26
                                  Source: Data obtained from analyzing the JAMES.

                                  Management Actions: After we communicated our
                                  preliminary audit results to the IRS in December 2004, the
                                  CIO required all extensions of corrective action due dates to
                                  be reviewed and approved by the CIO. Since the CIO has
                                  taken actions to improve the timeliness of completing
                                  corrective actions, we are making no additional
                                  recommendations at this time.
                                  To determine whether all open corrective actions were
Open Corrective Actions Are
                                  related to significant issues, we reviewed each open
Related to Significant Areas
                                  corrective action and classified it into one of the categories
                                  shown in Figure 4. Based on this analysis, we determined
                                  all open corrective actions are significant because they
                                  address issues with systems security, systems
                                  modernization, existing IRS material weaknesses/internal
                                  control deficiencies,3 or the President’s Management


                                  2
                                    This is the average number of months overdue as of
                                  September 29, 2004.
                                  3
                                    Internal control deficiencies, also known as “reportable conditions,”
                                  are matters that could adversely affect an organization’s ability to
                                  initiate, record, process, and report financial data consistent with the
                                  assertions of management in the financial statements.
                                                                                                      Page 4
The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
              Treasury Inspector General for Tax Administration Reports

                                Agenda (PMA).4 Some of the corrective actions also
                                address multiple issues. Appendix VIII provides a detailed
                                listing of all the prioritized open corrective actions.
                                            Figure 4: Open Corrective Actions by Category

                                    Category                  Title                        # Of Items
                                        I      Systems Security Issues                         44
                                       II      Systems Modernization Issues                    23
                                               Material Weakness/Internal
                                       III                                                      26
                                               Control Deficiency Issues
                                       IV      PMA Issues                                        8
                                    Total Corrective Actions                                    101
                                Source: TIGTA prioritization using information from the JAMES.

                                Category I – Systems Security Issues
                                The CIO identified systems security as a major focus area
                                for FY 2005. We determined 44 open corrective actions
                                related to systems security. These 44 actions are also
                                considered IRS material weaknesses and relate to a PMA
                                critical area. Examples of TIGTA recommendations
                                generating the systems security open corrective actions are:
                                •     ****7****------------------------------------------------------
                                      --------------------------------------------------------------------
                                      -------.5
                                •     ****7****------------------------------------------------------
                                      --------------------------------------------------------------------
                                      -------.6
                                See Appendix V for a detailed breakdown of systems
                                security versus nonsystems security corrective actions.




                                4
                                  The PMA is an aggressive strategy for improving the management of
                                the Federal Government. It focuses on critical areas of management
                                weaknesses across the Federal Government where improvements and
                                the most progress can be made.
                                5
                                  The Security of the Integrated Collection System Needs to Be
                                Strengthened (Reference Number 2003-20-119, dated May 2003).
                                6
                                  Penetration Test of Internal Revenue Service Computer Systems
                                (Reference Number 2003-20-082, dated March 2003).
                                                                                                  Page 5
The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
              Treasury Inspector General for Tax Administration Reports

                                Category II – Systems Modernization Issues
                                Since its inception in FY 2000, the TIGTA has identified
                                the IRS’ systems modernization effort as a major
                                management weakness. In addition, the Government
                                Accountability Office has designated the modernization
                                program as high risk, in part because of its size, complexity,
                                and immense importance to improving mission performance
                                and accountability. We determined 23 open corrective
                                actions related to systems modernization. These actions are
                                also considered IRS material weaknesses and relate to PMA
                                critical areas. Examples of TIGTA recommendations
                                generating the systems modernization open corrective
                                actions are:
                                •   To help provide clear direction in the development of
                                    the Business Systems Modernization (BSM) program,
                                    the CIO should determine whether and how the BSM
                                    Office will fulfill the BSM program integrator role and
                                    document the related responsibilities and processes.7
                                •   To more clearly define the Computer Sciences
                                    Corporation’s (CSC)8 responsibility to fully document
                                    the business requirements prior to beginning system
                                    development, the CIO should require the BSM Office to
                                    conduct an analysis of future change requests to
                                    determine whether the change should have been part of
                                    the contractor’s normal requirements gathering. Task
                                    orders to define business requirements should be written
                                    to hold the CSC responsible for making such changes at
                                    no additional cost to the IRS.9




                                7
                                  The Office of Release Management Can Improve Controls for
                                Modernization Program Coordination (Reference Number
                                2004-20-157, dated September 2004).
                                8
                                  To facilitate the success of its modernization efforts, the IRS hired the
                                CSC as the PRIME contractor and integrator for the BSM program.
                                9
                                  Oversight of the Business Systems Modernization Contractor Needs
                                Improvement (Reference Number 2004-20-034, dated January 2004).
                                                                                                    Page 6
The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
              Treasury Inspector General for Tax Administration Reports

                                Category III – IRS Material Weakness and Internal Control
                                Deficiency Issues
                                The IRS is required by the Federal Managers Financial
                                Integrity Act of 1982 (FMFIA)10 to report and effectively
                                correct outstanding material weaknesses and internal control
                                deficiencies through implementing recommendations made
                                by the TIGTA and other oversight agencies. We determined
                                26 corrective actions related to an IRS material weakness
                                and were not included as Category I and II actions.
                                Examples of TIGTA recommendations generating the
                                material weakness and internal control deficiency open
                                corrective actions are:
                                •    The CIO should ensure service is immediately
                                     discontinued for cellular telephones that have not been
                                     registered in the national database.11
                                •    The CIO should ensure a complete inventory of phone
                                     cards is established, prior to migrating the inventory
                                     management and billing function to the
                                     Telecommunications Asset Tool (TAT)12 system, and
                                     annual phone card inventories are completed on a
                                     consistent basis.13
                                See Appendix VI for the analysis of open corrective actions
                                relating to the IRS material weaknesses and internal control
                                deficiencies.
                                Category IV – PMA Issues
                                Since the inception of the PMA in July 2001, we have made
                                recommendations to make improvements to meet the PMA


                                10
                                   31 U.S.C. §§ 1105, 1113, 3512 (2000). The FMFIA requires
                                ongoing evaluations and reports of the adequacy of systems on internal
                                accounting and administrative control of each executive agency.
                                11
                                   Telecommunications Costs Controls Have Not Been Effectively
                                Implemented and Should Continue to Be Improved and Monitored
                                (Reference Number 2004-20-156, dated September 2004).
                                12
                                   The TAT system is a web-based telecommunications resource
                                management system designed to allow local and national offices to
                                initiate, process, approve, review, and manage telecommunications
                                resources to identify potential waste, fraud, and abuse.
                                13
                                   Telecommunications Costs Controls Have Not Been Effectively
                                Implemented and Should Continue to Be Improved and Monitored
                                (Reference Number 2004-20-156, dated September 2004).
                                                                                               Page 7
The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
              Treasury Inspector General for Tax Administration Reports

                                goals. We determined eight corrective actions related to a
                                PMA critical area but were not included in
                                Categories I through III. Examples of TIGTA
                                recommendations generating the PMA open corrective
                                actions are:
                                •    To ensure the MITS organization has adequate staffing
                                     to meet its needs, the CIO should charge the Director,
                                     Management Services, to develop detailed hiring and
                                     retention plans.14
                                •    The CIO should ensure a centralized, multifunctional
                                     investment review process is established and
                                     documented for the selection, funding, and monitoring
                                     of all IRS information technology investments.15
                                See Appendix VII for the analysis of open corrective actions
                                relating to the PMA.
                                Management Actions: After we met with the CIO to
                                communicate our interim results, the CIO met with other
                                high-level IRS executives to determine how to prioritize the
                                corrective actions. The CIO also provided our results to
                                approximately 20 leadership team members during an all
                                day senior leadership team meeting and reemphasized the
                                importance of delivering quality, timely responses to the
                                TIGTA. Because the CIO has taken actions to prioritize
                                corrective actions, we are making no additional
                                recommendations at this time.




                                14
                                   The Modernization, Information Technology and Security Services
                                Organization Needs to Take Further Action to Complete Its Human
                                Capital Strategy (Reference Number 2003-20-209, dated
                                September 2003).
                                15
                                   The Selection, Monitoring, and Management of Systems Improvement
                                Projects, Such as the Print Consolidation Project, Need Modification
                                (Reference Number 2002-20-138, dated August 2002).




                                                                                             Page 8
The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
              Treasury Inspector General for Tax Administration Reports

                                Management’s Response: Management’s response was due
                                on March 31, 2005. As of April 5, 2005, management had
                                not responded to the draft report.


                                .




                                                                                  Page 9
     The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
                   Treasury Inspector General for Tax Administration Reports

                                                                                                        Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) is efficiently addressing open corrective actions resulting from Treasury Inspector General
for Tax Administration audit recommendations. To achieve this objective, we determined
whether the open corrective actions were categorized to provide for an efficient method of
resolution. We:
I.        Reviewed all open corrective actions to determine:
          A. The number of months each corrective action had been overdue.
          B. The percentage of corrective actions having missed the original due dates and the
             average amount of time these actions were overdue.
II.       Reviewed all of the open corrective actions and determined whether they were aligned
          with a broader program.
          A. Determined whether any open corrective actions related to any IRS material
             weaknesses or internal control deficiencies.1
          B. Determined whether any open corrective actions were aligned with the President’s
             Management Agenda (PMA).2
III.      Determined the distribution of open corrective actions within the Modernization and
          Information Technology Services (MITS) organization.
          A. Identified the responsible official for each corrective item.
          B. Analyzed the workload of assigned corrective actions to the identified manager
             within the MITS organization.




1
  Internal control deficiencies, also known as “reportable conditions,” are matters that could adversely affect an
organization’s ability to initiate, record, process, and report financial data consistent with the assertions of
management in the financial statements.
2
  The PMA is an aggressive strategy for improving the management of the Federal Government. It focuses on
critical areas of management weaknesses across the Federal Government where improvements and the most
progress can be made.
                                                                                                              Page 10
 The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
               Treasury Inspector General for Tax Administration Reports

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Troy D. Paterson, Audit Manager
Phung H. Nguyen, Lead Auditor
Tina Wong, Senior Auditor
Steven W. Gibson, Auditor




                                                                                         Page 11
 The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
               Treasury Inspector General for Tax Administration Reports

                                                                            Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Associate Chief Information Officer, Information Technology Services OS:CIO:I
Associate Chief Information Officer, Management OS:CIO:M
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
       Manager, Program Oversight Office OS:CIO:SM:PO




                                                                                  Page 12
  The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
                Treasury Inspector General for Tax Administration Reports

                                                                                           Appendix IV


                  Division of Open Corrective Actions Within the
          Modernization and Information Technology Services Organization

The 101 open corrective actions we reviewed were divided among 11 different divisions within
the Modernization and Information Technology Services organization.

                        Figure 1: Open Corrective Actions by Responsible Official




Source: Data obtained from analyzing the Joint Audit Management Enterprise System. NOTE: Percentages do not
total 100 percent due to rounding.




                                                                                                   Page 13
  The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
                Treasury Inspector General for Tax Administration Reports

                                                                                       Appendix V


                  Security Versus Non-Security Open Corrective Actions

The 101 open corrective actions we reviewed can be broken down between systems security and
nonsystems security-related actions. In addition, we performed a detailed review of each open
corrective action to determine and group similar items into specific categories. These categories
show the status of work performed and other actions required of the Modernization and
Information Technology Services organization to close out the corrective actions.
                      Figure 1: Security Versus Non-Security Open Corrective Actions




Source: Data obtained from analyzing the Joint Audit Management Enterprise System.




                                                                                           Page 14
    The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
                  Treasury Inspector General for Tax Administration Reports

                                                                                                     Appendix VI


                    Corrective Actions Related to Material Weaknesses or
                                Internal Control Deficiencies

We analyzed all 101 open corrective actions to determine whether they related to specific
Internal Revenue Service (IRS) material weaknesses or internal control deficiencies.1 Of the
101 open corrective actions, 93 relate to either a material weakness or an internal control
deficiency. See Appendix VIII for details on the open corrective actions that relate to an IRS
material weakness or internal control but are not related to systems security or systems
modernization.
         Figure 1: Open Corrective Actions Related to Material Weaknesses or Internal Control Deficiencies




Source: Data obtained from analyzing the Joint Audit Management Enterprise System.




1
 Internal control deficiencies, also known as “reportable conditions,” are matters that could adversely affect an
organization’s ability to initiate, record, process, and report financial data consistent with the assertions of
management in the financial statements.




                                                                                                             Page 15
    The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
                  Treasury Inspector General for Tax Administration Reports

                                                                                                     Appendix VII



           Corrective Actions Related to the President’s Management Agenda

We analyzed all 101 open corrective actions and determined they all relate to a specific
President’s Management Agenda (PMA) item.1 Of the 101 open corrective actions, only 8 do
not relate to systems security, systems modernization, or a material weakness/internal control
deficiency.2 See Appendix VIII for details on the open corrective actions that relate to a PMA
item but are not related to systems security, systems modernization, or a material
weakness/internal control deficiency.
                  Figure 1: Open Corrective Actions Related to the President’s Management Agenda




Source: Data obtained from analyzing the Joint Audit Management Enterprise System.




1
  The PMA is an aggressive strategy for improving the management of the Federal Government. It focuses on
critical areas of management weaknesses across the Federal Government where improvements and the most
progress can be made.
2
  Internal control deficiencies, also known as “reportable conditions,” are matters that could adversely affect an
organization’s ability to initiate, record, process, and report financial data consistent with the assertions of
management in the financial statements.
                                                                                                              Page 16
    The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
                  Treasury Inspector General for Tax Administration Reports

                                                                                                   Appendix VIII


                              Categorization of Open Corrective Actions

We analyzed all 101 open corrective actions and classified them into 4 specific categories based
upon their relationship to systems security, systems modernization, existing Internal Revenue
Service (IRS) material weaknesses/internal control deficiencies,1 and the President’s
Management Agenda (PMA).2 Table 1 lists the open corrective action according to the format
used by the IRS.3
                                Table 1: Categorization of Open Corrective Actions
                           Category I – 44 Corrective Actions Related to Systems Security
    2004-20-142/1/1/1      2004-20-131/1/2/2     2004-20-073/3/1/1     2003-20-119/1/1/3         2002-20-075/1/1/2
    2004-20-142/1/2/1      2004-20-131/2/4/1     2004-20-073/3/1/2     2003-20-119/1/4/3         2002-20-075/1/1/3
    2004-20-142/2/1/3      2004-20-126/1/1/1     2004-20-063/3/1/1     2003-20-118/2/2/1         2002-20-075/1/1/4
    2004-20-142/2/1/4      2004-20-126/1/2/1     2004-20-063/2/1/1     2003-20-118/1/5/1         2002-20-075/1/2/1
    2004-20-142/2/2/1      2004-20-126/1/3/1     2004-20-053/1/1/1     2003-20-118/2/2/2         2002-20-075/5/2/1
    2004-20-142/2/2/2      2004-20-079/1/3/1     2004-20-053/1/2/2     2003-20-082/5/1/1         2002-20-007/3/1/1
    2004-20-142/2/3/2      2004-20-079/2/1/1     2004-20-053/1/3/1     2003-20-082/6/1/1         2001-20-043/1/1/1
    2004-20-135/1/1/1      2004-20-079/3/1/1     2004-20-053/1/5/1     2003-20-056/2/1/1         2001-20-043/1/2/1
    2004-20-131/1/2/1      2004-20-073/2/1/1     2004-20-053/2/1/1     2002-20-145/1/1/1

                        Category II - 23 Corrective Actions Related to Systems Modernization
    2004-20-157/3/1/1      2004-20-061/3/1/1      2004-20-026/1/1/2     2004-40-110/1/2/1    2003-20-219/1/4/1
    2004-20-157/2/1/1      2004-20-034/1/2/1      2004-20-026/1/1/1     2004-40-013/1/2/1    2001-20-152/1/1/1
    2004-20-157/1/1/1      2004-20-034/2/1/1      2004-20-001/2/1/1     2004-40-013/1/3/1    2001-20-152/1/2/1
    2004-20-147/2/4/1      2004-20-034/2/2/1      2004-40-110/1/1/1     2004-30-023/1/3/3
    2004-20-147/2/3/1      2004-20-026/1/2/1      2004-40-110/1/1/2     2004-30-023/1/5/1




1
  Internal control deficiencies, also known as “reportable conditions,” are matters that could adversely affect an
organization’s ability to initiate, record, process, and report financial data consistent with the assertions of
management in the financial statements.
2
  The PMA is an aggressive strategy for improving the management of the Federal Government. It focuses on
critical areas of management weaknesses across the Federal Government where improvements and the most
progress can be made.
3
  The first nine digits (XXX-XX-XX) are the Treasury Inspector General for Tax Administration (TIGTA) audit
report number. The next three digits (/X/X/X) correspond to the finding number, recommendation number, and
corrective action number. Audit reports and management responses can be found on the TIGTA web site:
http://www.treas.gov/tigta/oa_auditreports.shtml.
                                                                                                             Page 17
 The Chief Information Officer Is Taking Steps to Timely Complete Corrective Actions to
               Treasury Inspector General for Tax Administration Reports

  Category III - 26 Corrective Actions Related to an IRS Material Weakness/Internal Control Deficiency
 2002-20-043/2/1/1    2003-40-165/4/1/1     2004-20-041/3/2/1     2004-20-156/2/3/1   2004-20-156/4/1/1
 2002-20-043/2/2/1    2004-20-041/1/1/1     2004-20-041/3/3/1     2004-20-156/2/4/1   2004-20-156/4/2/1
 2002-20-100/1/1/1    2004-20-041/1/2/1     2004-20-156/1/1/1     2004-20-156/2/5/1   2004-20-156/4/3/1
 2002-20-100/1/2/1    2004-20-041/1/3/1     2004-20-156/2/1/1     2004-20-156/3/1/1   2004-20-156/5/1/1
 2003-40-092/1/1/1    2004-20-041/2/1/1     2004-20-156/2/2/1     2004-20-156/3/3/1   2004-20-156/5/2/1
                                                                                      2004-30-055/2/1/1

             Category IV - 8 Corrective Actions Related to the President’s Management Agenda
  2003-20-209/2/1/1     2003-20-035/1/1/1      2003-20-035/2/3/1    2002-20-138/1/2/1
  2003-20-117/1/2/1     2003-20-035/1/2/1      2002-20-138/1/1/1    2001-20-004/1/1/1
Source: Data obtained from analyzing the Joint Audit Management Enterprise System.




                                                                                                Page 18
